CERTIFICATE OF SERVICE
NO. 19-635
Donald J. Trump
Petitioner,
v.
Cyrus R. Vance, Jr., in His Official Capacity as District Attorney of the County of New York, et al.
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the BOSTON
UNIVERSITY SCHOOL OF LAW PROFESSORS AMICI IN SUPPORT OF RESPONDENT (S), by mailing three
(3) true and correct copies of the same by USPS Priority mail, postage prepaid for delivery to the
following addresses:
Jay Alan Sekulow
Constitutional Litigation and Advocacy Group, P.C.
1701 Pennsylvania Ave, NW, Ste. 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw.com
Counsel for Donald Trump

Jerry D. Bernstein
Blank Rome LLP
1271 Avenue of the Americas
New York, NY 10020
(212) 885-5511
jbernstein@blankrome.com
Counsel for Mazars USA LLP

Carey R. Dunne
New York County District Attorney's Office
One Hogan Place
New York, NY 10013
(212) 335-9000
dunnec@dany.nyc.gov
Counsel for Cyrus R. Vance, Jr.,
in His Official Capacity as District Attorney
of the County of New York

Lucas DeDeus

March 3, 2020
SCP Tracking: Wheaton-765 Commonwealth Avenue-Cover Cream

